                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A09050037                                                                     Page 1 of 1



                We reviewed an allegation of plagiarism inthe Subject'sl proposae and identified a small
         amount of copied text. We wrote an inquiry letter to the Subject, who denied copying the text.
         The words and their order are concordant in the proposal and in the indicated sources, and
         grammatical errors in the source are mirrored in the proposal. However, the extent of the
         apparently copied text in the NSF proposal does not justify a full investigation, We sent a letter
         reminding the Subject of NSF's expectations for scholarship.

                   Accordingly, this case is closed.




NSF OIG Fonn2 (lJI02)
